         U.S. ENVIRONMENTAL PROTECTION AGENCY
         OFFICE OF INSPECTOR GENERAL



                                        Catalyst for Improving the Environment


Audit Report




       EPA Needs to Improve Its
       Recording and Reporting
       of Fines and Penalties
       Report No. 10-P-0077

       March 9, 2010
Report Contributors:                    Paul Curtis
                                        Arthur Budelier
                                        Cynthia R. Poteat
                                        Sabrina Berry
                                        Sheree James
                                        Robert Evans
                                        James Niergarth




Abbreviations

BD           Billing Document
CFC          Cincinnati Finance Center
EPA          U.S. Environmental Protection Agency
FY           Fiscal Year
GAO          Government Accountability Office
ICIS         Integrated Compliance and Information System
IFMS         Integrated Financial Management System
OECA         Office of Enforcement and Compliance Assurance
OIG          Office of Inspector General
RMDS         Resources Management Directive System
SFO          Servicing Finance Office
                       U.S. Environmental Protection Agency 	                                               10-P-0077
                                                                                                         March 9, 2010
                       Office of Inspector General


                       At a Glance

                                                                            Catalyst for Improving the Environment


Why We Did This Review             EPA Needs to Improve Its Recording and
We performed this review to        Reporting of Fines and Penalties
determine whether the U.S
Environmental Protection            What We Found
Agency (EPA) (1) billed and
collected fines and penalties in   EPA did not consistently record fines and penalty billings in a timely manner.
a timely manner; (2) took          Regional and program office personnel did not forward copies of source
appropriate action to collect      documents timely to CFC, which delayed the recording of accounts receivable.
fines and penalties; and           EPA did not record a receivable as required for two disputed stipulated penalties
(3) tracked the assessment,        totaling $2,839,500.
billing, and collection of fines
and penalties to measure the       EPA generally took appropriate action to collect fines and penalties. However, it
impact of the enforcement          did not monitor the collections on a $300,000 receivable as required.
program and promote accurate
and transparent reporting.         EPA tracked the assessment, billing, and collection of fines and penalties. EPA
                                   used the assessments, and not the collections, as one of its measures of the
Background                         enforcement program’s impact. OECA’s data system contained 7 errors totaling
                                   $139,242 in the penalty assessment amounts out of 156 billings reviewed related
EPA’s Office of Enforcement        to 117 assessments. Due to these data errors and nondisclosure of collections,
and Compliance Assurance           EPA did not report penalty information with complete accuracy and transparency.
(OECA) monitors compliance
with environmental laws and        In November 2008, EPA upgraded the Regional Hearing Clerk database to notify
takes enforcement action           CFC of new receivable source documents. The enhancement improved CFC’s
when needed. Assessing             ability to record receivables more timely.
penalties as part of an
enforcement action provides a       What We Recommend
deterrent to noncompliance.
The Cincinnati Finance Center      We made various recommendations to EPA to address recording fines and penalty
(CFC) records and tracks the       billings more timely, monitoring delinquent debt, ensuring greater accuracy in
billing and collection of fines    OECA’s data system, and disclosing fines and penalties collected as well as
and penalties.                     assessments when reporting the results of enforcement actions. We revised a
                                   recommendation regarding testing internal controls over the forwarding of account
                                   receivable source documents to CFC and added a recommendation to develop a
For further information,
contact our Office of              policy for recording stipulated penalties. EPA should provide estimated
Congressional, Public Affairs      completion dates for recommendations 2-2, 4-2, 4-3, and 5-1. Based on these
and Management at                  revisions, EPA agreed with all our recommendations.
(202) 566-2391.

To view the full report,
click on the following link:
www.epa.gov/oig/reports/2010/
20100309-10-P-0077.pdf
                      UNITED STATES ENVIRONMENTAL PROTECTION AGENCY
                                   WASHINGTON, D.C. 20460


                                                                                        OFFICE OF
                                                                                   INSPECTOR GENERAL




                                          March 9, 2010

MEMORANDUM

SUBJECT:	              EPA Needs to Improve Its Recording and Reporting of Fines and Penalties
                       Report No. 10-P-0077


FROM:                  Melissa M. Heist
                       Assistant Inspector General for Audits

TO:                    Barbara J. Bennett
                       Chief Financial Officer

                       Cynthia Giles
                       Assistant Administrator for Enforcement and Compliance Assurance


The Office of Inspector General (OIG) of the U.S. Environmental Protection Agency (EPA)
conducted this report on the subject audit. This report contains findings that describe problems
we identified and corrective actions we recommend. This report represents our opinion and does
not necessarily represent the final EPA position. EPA managers will make final determinations
on matters in this report in accordance with established audit resolution procedures.

The estimated cost of this report – calculated by multiplying the project’s staff days by the
applicable daily full cost billing rates in effect at the time – is $340,813.

Action Required

In accordance with EPA Manual 2750, you are required to provide a written response to this
report within 90 calendar days. You should include a corrective actions plan for agreed-upon
actions, including milestone dates. We have no objections to the further release of this report to
the public. This report will be available at http://www.epa.gov/oig.

If you or your staff have any questions regarding this report, please contact me at (202) 566-0899
or heist.melissa@epa.gov, or Paul Curtis at (202) 566-2523 or curtis.paul@epa.gov.
EPA Needs to Improve Its Recording                                                                                           10-P-0077
and Reporting of Fines and Penalties



                                    Table of Contents 


Chapter
1      Introduction .............................................................................................................      1


                 Purpose ..........................................................................................................    1

                 Background ....................................................................................................       1

                 Noteworthy Achievements..............................................................................                 2         

                 Scope and Methodology.................................................................................                3


2      Billings and Collections Not Recorded Timely......................................................                              4


                 CFC Did Not Consistently Record Fines and Penalty Billings Timely ............                                        4

                 EPA Did Not Record a Receivable for Two Stipulated Penalties ...................                                      5

                 Conclusion......................................................................................................      7

                 Recommendations .........................................................................................             7             

                 Preliminary Agency Actions............................................................................                7

                 Agency Comments and OIG Evaluation.........................................................                           8


3      Improvements Needed in Monitoring EPA’s Accounts Receivable ....................                                                9


                 EPA Did Not Monitor the Collection Activity on a Receivable .........................                                 9

                 Conclusion .....................................................................................................     10 

                 Recommendations ..........................................................................................           10         

                 Preliminary Agency Actions............................................................................               10         

                 Agency Comments and OIG Evaluation.........................................................                          11 


4      Enforcement Penalty Data Not Completely Accurate ...........................................                                   12 


                 Errors in Penalty Data in ICIS Identified .........................................................                  12

                 Conclusion......................................................................................................     13
                 Recommendations ........................................................................................             13
                 Agency Comments and OIG Evaluation.........................................................                          14 


5      EPA Reported Penalty Assessments but Not Collections ...................................                                       15


                 EPA Disclosed Penalty Assessments but Not Collections for
                    Enforcement Accomplishments ..............................................................                        15

                 Conclusion......................................................................................................     16

                 Recommendation ...........................................................................................           16
                 Agency Comments and OIG Evaluation.........................................................                          16 


Status of Recommendations and Potential Monetary Benefits.......................................                                      18     





                                                          -continued-
EPA Needs to Improve Its Recording                                                                                          10-P-0077
and Reporting of Fines and Penalties




Appendices
   A     Details on Scope and Methodology.....................................................................                       19   


   B     Agency Response to Draft Report.......................................................................                      21   


   C     Distribution ............................................................................................................   29   

                                                                                   10-P-0077 





                                 Chapter 1
                                 Introduction
Purpose
          We performed this review because Congress showed an interest in determining
          the effectiveness of the U.S. Environmental Protection Agency’s (EPA’s) billing
          and collection of fines and penalties.

          The objectives of our review were to determine whether:

             •	 EPA has billed and collected fines and penalties in a timely manner;

             •	 EPA has taken appropriate action to collect fines and penalties; and

             •	 EPA tracks the assessment, billing, and collection of fines and penalties to
                measure the impact of the enforcement program and promote accurate and
                transparent reporting.

Background
          EPA’s Office of Enforcement and Compliance Assurance (OECA) monitors
          compliance with environmental laws and takes enforcement action when needed.
          OECA assesses civil and criminal penalties as part of an enforcement action to
          provide a deterrent effect to noncompliance. Civil penalties may be
          administrative, judicial, or stipulated. Documents negotiated out of court, such as
          an administrative order on consent, provide the basis for administrative penalties.
          Judicial documents derived from court action, such as a consent decree, provide
          the basis for judicial penalties. A stipulated penalty is a fixed sum of money that
          a defendant agrees to pay for violating the terms of a consent decree.

          Some of the major statutes that grant EPA the authority to assess penalties are the
          Clean Air Act; Clean Water Act; Safe Drinking Water Act; Comprehensive
          Environmental Response, Compensation, and Liability Act; Toxic Substances
          Control Act; Federal Insecticide, Fungicide, and Rodenticide Act; and Resource
          Conservation and Recovery Act.

          OECA tracks civil fines and penalty assessments in its Integrated Compliance and
          Information System (ICIS) database and reports fines and penalty assessments in
          its annual Accomplishments Reports. For the 5 fiscal years ended September 30,
          2008, EPA reported civil fines and penalty assessments of $724 million as
          detailed in Table 1-1.




                                           1

                                                                                                         10-P-0077


        Table 1-1: EPA Civil Penalties Assessed1 (in thousands)
                                   2004       2005        2006                    2007          2008         Total
         Administrative             $28,000   $27,000     $42,000                 $30,700      $38,200      $165,900
         Judicial                  $121,000  $127,000     $82,000                 $39,800      $88,400      $458,200
         Stipulated                 $68,000    $4,000     $10,000                 $12,400       $5,500       $99,900
         Total Civil Penalties     $217,000  $158,000    $134,000                 $82,900     $132,100      $724,000
        Source: OIG analysis of EPA data.

                 EPA assessed criminal penalties of $316 million for the 5 fiscal years ended
                 September 30, 2008. Criminal penalties are primarily payable to other entities.
                 Accordingly, the other entities were responsible for those billings and collections.

                 EPA, the Department of Justice, and the Treasury’s Debt Management Services
                 all perform a role in the billing and collection of fines and penalties. EPA bills
                 and collects administrative settlements and penalties. The Department of Justice
                 bills and collects judicial settlements and penalties on behalf of EPA. EPA’s
                 Cincinnati Finance Center (CFC) records and tracks the billing and collection for
                 debtors’ current payments and issues dunning letters for delinquent accounts as
                 needed. For eligible delinquent receivables, the Treasury’s Debt Management
                 Services provide collection services for EPA in accordance with the Debt
                 Collection Act of 1996.

                 For the 5 fiscal years ended September 30, 2008, EPA recorded fines and penalty
                 billings of $694 million in the Integrated Financial Management System (IFMS).
                 EPA’s civil penalty assessments of $724 million for the same period exceeded its
                 billings by $30 million. We could not determine the reasons for the $30 million
                 difference. Reconciling ICIS to IFMS was difficult because the databases lacked
                 a common link or data field.

                 Of the $694 million assessed and billed by EPA, the uncollected receivables –
                 including interest, handling charges, and late payment penalties – totaled
                 $280 million as of April 14, 2009. Included in the uncollected receivables were
                 three large default judgment civil penalties2 totaling $230 million that EPA
                 considers to be uncollectible.

Noteworthy Achievements
                 In November 2008, EPA enhanced the Regional Hearing Clerk database with the
                 capability to notify CFC of new administrative documents and make electronic
                 copies of the documents available in the database. The enhancement improved
                 EPA’s ability to record receivables more timely by providing timely notification
                 to CFC and eliminating the document mailing time from the regions to CFC.

1
  The amounts EPA reported for stipulated penalties represent the amounts collected, while the administrative and 

judicial penalties represent the amounts assessed. 

2
  The court may assess a default judgment penalty for the maximum amount provided by law when the defendant

fails to appear in court to defend a lawsuit. 



                                                         2

                                                                                 10-P-0077 



Scope and Methodology
         We conducted this audit in accordance with generally accepted government
         auditing standards. Those standards require that we plan and perform the audit to
         obtain sufficient, appropriate evidence to provide a reasonable basis for our
         findings and conclusions based on our audit objectives. We believe that the
         evidence obtained provides a reasonable basis for our findings and conclusions
         based on our audit objectives. We conducted our audit from January through
         October 2009. Appendix A contains a more extensive discussion of our scope
         and methodology.




                                         3

                                                                                             10-P-0077 





                                   Chapter 2
      Billings and Collections Not Recorded Timely
          EPA did not consistently record fines and penalty billings in a timely manner.
          Regional and program office personnel did not forward copies of source
          documents timely to CFC as required by EPA’s Resources Management Directive
          System (RMDS). Also, EPA did not record a receivable for two disputed
          stipulated penalties totaling $2,839,500. The Agency was uncertain about
          recording penalty amounts in dispute and did not follow established guidance for
          recording these accounts receivable. Untimely receipt of accounts receivable
          source documentation delays the recording of accounts receivable and the process
          of collecting delinquent receivables. The unrecorded receivable accounts
          understated the accounts receivable in the financial statements.

CFC Did Not Consistently Record Fines and Penalty Billings Timely
          CFC received the source documents for 7 of 32 billings in our review more than
          30 work days after the effective date of the legal document that established a debt
          to the Agency. Table 2-1 illustrates the billings, number of work days from the
          effective date to the receipt date, and the reason for the delays.

          Table 2-1: Documents Received Over 30 Work Days from the Effective Date
                                                        Number of
                   Billing                           Work Days from
                  Document             Billed        Effective Date to
                   Number             Amount           Receipt Date           Reason for Delays
            1.   2740860A149         $11,400,000            31           Time off and holiday leave.
            2.   2750803A004            $140,000            40           Regional personnel could not
                                                                         give a reason for the delay.
            3.   4CD904312TX            $122,000            99           Determining a penalty
                                                                         allocation between EPA and
                                                                         State required more time.
            4.   2740803A142          $1,250,000            33           Regional personnel waited for
                                                                         an allocation of funds between
                                                                         regions.
            5.   2730842R247          $3,164,555            70           Misunderstanding over which
                                                                         party would send documents.
            6.   6CIVH01097X             $37,500            90           Regional personnel could not
                                                                         give a reason for the delay.
            7.   2750930B093          $1,259,695            46           Regional personnel could not
                                                                         give a reason for the delay.
          Source: OIG analysis of EPA data.

          EPA did not consistently record fines and penalty billings in a timely manner.
          The Office of Regional Counsel and program offices did not forward copies of the


                                                4

                                                                                     10-P-0077 



          source documents to CFC timely. EPA personnel offered the following reasons
          for the delays in forwarding source documents: time off and holiday leave,
          determination of a penalty allocation that required more time, and a
          misunderstanding over which party would send the documents to CFC. For some
          documents, EPA could not provide a reason for the delay.

          RMDS 2550D, Chapter 14, Superfund Accounts Receivable and Billings, requires
          regional counsel and enforcement offices to forward copies of all entered
          Superfund consent decrees and judgments to the finance office within 3 work
          days of receipt from the Department of Justice or the court. RMDS 2540,
          Chapter 9, Receivables and Billings, requires the responsible EPA office to
          forward a copy of the action document to the finance office within 5 days of
          determining that a debt is owed to EPA. Although EPA’s requirements are 3 and
          5 work days, we used a less rigorous standard of 30 work days in our testing.

          Other factors also contributed to EPA’s untimely recording of fines and penalties.
          EPA did not:

             •	 Monitor the timely forwarding of documents to CFC,

             •	 Establish performance measures to track the timely forwarding of source
                documents to CFC and to enforce accountability of Office of Regional
                Counsel and program office personnel, and

             •	 Test the timeliness of forwarding source documents to CFC as a part of
                the Office of Management and Budget Circular A-123 review of internal
                controls.

          The untimely receipt of accounts receivable source documents delays the
          recording of accounts receivable and the process of collecting delinquent
          receivables. Delayed recording of fines and penalties understates the accounts
          receivable in the financial statements.

EPA Did Not Record a Receivable for Two Stipulated Penalties
          CFC did not record a receivable from a debtor corporation for two disputed
          stipulated penalties totaling $2,839,500. EPA established a valid claim when it
          issued stipulated penalty demand letters based on the company’s violation of
          provisions in a consent decree. Federal accounting standards require a federal
          entity to recognize a receivable when it establishes a claim against another entity.
          EPA’s guidance requires a Servicing Finance Office (SFO) to carry any
          receivable amount that is under appeal or in litigation as an open receivable. The
          Agency was uncertain about recording penalty amounts in dispute and did not
          follow established guidance for recording these accounts receivable.




                                            5

                                                                           10-P-0077 



The consent decree provided for stipulated penalties under the Clean Air Act if
the debtor did not comply with the terms of the agreement. When the debtor did
not comply, EPA had a valid legal claim to the penalties and issued stipulated
penalty demand letters. The consent decree requires the debtor to pay the
penalties within 30 days of receiving EPA’s written demand. If the debtor
disputed the stipulated penalties, the consent decree stated that stipulated penalties
shall continue to accrue during the dispute resolution, but need not be paid until
the dispute was resolved.

Through inquiry of CFC personnel, we determined that CFC was unsure about
recording the receivable. The Agency questioned the appropriateness of
recording the disputed penalties because the judge’s final order might change the
penalty amount. CFC was looking into the matter and trying to determine what
should be recorded.

Although the consent decree did not require payment of the penalties during
dispute resolution, accounting standards and guidance requires EPA to record a
receivable when established and carry it as an open receivable during the dispute
resolution process. If the dispute resolution changed the penalty amount, EPA
could then adjust the receivable. EPA, the Federal Accounting Standards
Advisory Board, and the Government Accountability Office (GAO) have
established guidance for recording accounts receivable when a claim is
established and for recording transactions timely:

   •	    RMDS 2540, Chapter 9, Receivables and Billings, states that the SFO
        must ensure that a debt is recorded in IFMS no later than 3 work days after
        receipt of the documents or other information informing them of the debt.
        SFOs must carry any amount that is under appeal or in litigation as open
        until the government changes its position regarding the amount that is due
        and payable, either as a result of a court decision or as a result of an
        administrative settlement directed by a responsible government official.

  •	    The Federal Accounting Standards Advisory Board’s Statement of Federal
        Accounting Standards Number 1, Accounting for Selected Assets and
        Liabilities, states that a receivable should be recognized when a federal
        entity establishes a claim to cash or other assets against other entities,
        either based on legal provisions or goods or services provided.

  •	    GAO’s Standards for Internal Control in the Federal Government, dated
        November 1999, defines the five standards for the minimum level of
        quality acceptable for internal control in government. The standard for
        control activities requires accurate and timely recording of transactions
        and events.

The unrecorded receivable understated the accounts receivable in the financial
statements.


                                  6

                                                                                    10-P-0077 



Conclusion
          EPA did not consistently record fines and penalty billings in a timely manner
          because regional and program office personnel did not forward copies of source
          documents timely to CFC. EPA also did not monitor whether documents were
          forwarded timely to CFC, establish performance measures for timeliness, or test
          the related internal controls. If EPA implemented those control activities, it could
          become more timely in forwarding source documents to CFC, recording accounts
          receivable, and collecting receivables.

          EPA did not initially record a receivable for two disputed stipulated penalties.
          The Agency was uncertain about recording penalty amounts in dispute and did not
          follow established guidance for recording these accounts receivable. Accounting
          standards and guidance required CFC to record the receivable when it was
          established. By recording receivables timely, EPA would properly state the
          accounts receivable in the financial statements.

Recommendations
          We recommend that the Chief Financial Officer:

          2-1 	   Work with the Agency program offices to implement performance
                  measures to track the timeliness of forwarding accounts receivable source
                  documents to CFC and issue performance reports to the Agency program
                  offices and regions for accountability.

          2-2 	   Analyze and document the current process of forwarding accounts
                  receivable source documents to CFC and review it for effectiveness.
                  Upon completion, develop a plan for testing key internal controls and
                  correcting any deficiencies as part of the Office of Management and
                  Budget Circular A-123 review of internal controls.

          2-3	    Record the billings in IFMS for the two stipulated penalties.

          2-4 	   Develop a policy on fines and penalties to clarify when a stipulated
                  penalty becomes an account receivable.

Preliminary Agency Actions
          Subsequent to our audit field work, EPA established a receivable for the two
          stipulated penalties. CFC recorded the first penalty for $1,682,500 because EPA
          received a judge’s verbal ruling and the second penalty for $1,157,000 because
          EPA received a judge’s written opinion and order. EPA’s corrective action has
          satisfied our Recommendation 2-3 to record the billings in IFMS for the two
          stipulated penalties.



                                            7

                                                                                   10-P-0077 



Agency Comments and OIG Evaluation
         The OIG made changes to the report based on the Agency’s comments where
         appropriate. Appendix B provides the full text of the Agency comments.

         EPA agreed with recommendations 2-1 and 2-3. We revised recommendation 2-2
         to provide for analysis and documentation of the current process of forwarding
         accounts receivable source documentation to CFC before testing the effectiveness
         of the internal controls. We also added recommendation 2-4 to develop a policy
         for recording stipulated penalties. Based on these revisions, EPA agreed with all
         four recommendations.

         EPA believes it generally recorded fines and penalties in a timely manner, and
         OIG’s findings were only exceptions. We believe our statement that EPA did not
         consistently record fines and penalty billings in a timely manner is fair and our
         review results support it. We reported that CFC received the source documents
         for 7 of 32 billings in our review more than 30 work days after the effective date
         of the legal document that established a debt to the Agency. The rate of untimely
         receipt of documents is significant. In fact, if we had used EPA’s requirements of
         3 or 5 days, the error rate would have been 18 of 32 received late.

         OECA does not believe that the initial demand letter for payment of stipulated
         penalties is always a basis for creating an account receivable. Accordingly, EPA
         plans to develop a policy for recording accounts receivable for stipulated
         penalties. We do not object to EPA developing a policy if it complies with the
         standards of the Federal Accounting Standards Advisory Board. Therefore, we
         added a recommendation for EPA to develop a policy. Federal Accounting
         Standards Advisory Board number 1, Accounting for Selected Assets and
         Liabilities, states that a receivable should be recognized when a federal entity
         establishes a claim to cash or other assets against other entities, either based on
         legal provisions, such as a payment due date (e.g., taxes not received by the date
         they are due), or goods or services provided. If the exact amount is unknown, a
         reasonable estimate should be made. We believe that an initial demand letter for
         stipulated penalties based on a legal document, such as a consent decree, is a basis
         for creating an account receivable. RMDS 2540, Chapter 9, requires EPA to carry
         any amount that is under appeal or in litigation as open until the government
         changes its position regarding the amount that is due and payable, either as a
         result of a court decision or as a result of an administrative settlement directed by
         a responsible government official. We believe the RMDS 2540 standard should
         apply to a stipulated penalty.




                                           8

                                                                                     10-P-0077 





                                 Chapter 3
       Improvements Needed in Monitoring EPA’s
                Accounts Receivable
          EPA generally took appropriate action to collect fines and penalties. However,
          EPA did not monitor the collections on a Region 10 Superfund receivable as
          required by EPA’s guidance. CFC did not request the regional staff to resolve the
          outstanding delinquent debt, which at the time of our review was $298,851, and
          regional staff did not assign the responsibility for collecting the outstanding debt.
          Due to the lack of monitoring, EPA was not collecting payments on the debt.

EPA Did Not Monitor the Collection Activity on a Receivable
          We reviewed EPA’s collection efforts on 30 delinquent penalties totaling
          $19,215,096, or 56 percent of the testing universe totaling $34,353,418. EPA
          performed its collection efforts satisfactorily on 29 of the 30 samples reviewed.
          However, EPA did not monitor the collections on a Region 10 Superfund
          receivable for a criminal restitution penalty, billing document (BD)
          #2700630B058. The local county government court required the debtor to serve a
          jail sentence and make $300,000 restitution to EPA, payable monthly based on a
          percent of his income during and after his jail term. At the time of our review, the
          account balance was $298,851. CFC identified the receivable as delinquent and
          requested an EPA attorney to provide an estimate of collectibility. However, no
          one at EPA monitored the debtor’s release from jail and subsequent employment
          or investigated the reason why periodic collections were not received.

          RMDS 2550D, Chapter 14, Superfund Accounts Receivable and Billings, states
          that the SFO provides general accounting and financial management services in
          the regions and field offices and for Headquarters. The SFO’s responsibilities
          include:

             •	 Monitoring the status of accounts receivable until paid or liquidated;

             •	 Advising the legal and program offices when a receivable becomes
                delinquent; and

             •	 Requesting that the assigned regional Legal Enforcement Office/Office of
                Regional Counsel staff initiate the appropriate enforcement action to
                resolve the outstanding debt.

          CFC did not request the regional staff to resolve the outstanding delinquent debt
          and regional staff did not assign the responsibility for collecting the outstanding
          debt. EPA employees from the regional counsel, regional program office,


                                            9

                                                                                   10-P-0077 



          Criminal Investigation Division, and CFC who were familiar with the case stated
          that they were not responsible for tracking the collections on the receivable.
          Region 10 relied on the U.S. Attorney’s Office in the region to monitor the
          receivable and relied on the probation officer to monitor the debtor’s activities.
          However, the Department of Justice did not get involved with the case because
          the local county court assessed the receivable. Region 10 could improve its
          collection experience by assigning responsibility for monitoring the receivable
          and for resolving the debt.

          The local county government’s office stated that the debtor was making payments
          from his paycheck to the county, which in turn paid EPA. The county office
          could not forward the November 12, 2008, and April 28, 2009, payments of $24
          each to EPA because the post office returned the November payment due to an
          incorrect mailing address. EPA was not aware of the debtor’s current ability to
          pay or the local county government’s undelivered payments to EPA. Due to the
          lack of monitoring, EPA was not collecting payments on the debt.

Conclusion
          Based on our testing, we found one unusual instance in Region 10 involving a
          local court order that required payments from a criminal defendant. EPA did not
          monitor collections on this receivable as required by EPA’s guidance. Our testing
          otherwise indicated that EPA generally took appropriate action to collect fines
          and penalties. Region 10 could improve its collection experience by assigning
          responsibility for monitoring the Superfund receivable and resolving the debt.
          OECA is responsible for Superfund enforcement efforts.

Recommendations
          We recommend that the Chief Financial Officer:

          3-1 	   Notify the regional assignee that the debt for BD #2700630B058 is
                  delinquent and request they work to resolve it.

          We recommend that the Assistant Administrator for Enforcement and Compliance
          Assurance:

          3-2	    Ensure that Region 10 assigns the responsibility for monitoring the
                  outstanding debt for BD #2700630B058 and provides the name of the
                  assignee to CFC.

Preliminary Agency Actions
          Subsequent to our audit field work, CFC notified Region 10 that the debt for BD
          #2700630B058 is delinquent and requested they work to resolve it. Region 10
          assigned the responsibility for monitoring the outstanding debt and provided the


                                          10 

                                                                                10-P-0077 



         name of the assignee to CFC. EPA’s corrective actions have satisfied
         recommendations 3-1 and 3-2.

Agency Comments and OIG Evaluation
         EPA agreed with our recommendations. The OIG made changes to the report
         based on the Agency’s comments where appropriate. Appendix B provides the
         full text of the Agency’s comments.




                                        11 

                                                                                         10-P-0077 





                                      Chapter 4
  Enforcement Penalty Data Not Completely Accurate
              We found seven errors totaling $139,242 in OECA’s ICIS database during our
              review of Fiscal Year (FY) 2008 civil penalty assessments of $100,000 or higher.
              OECA’s reporting and certification process did not detect the errors. OECA
              requires regions and OECA offices to certify that the data entered in the national
              database are complete and correct. OECA did not reconcile the penalty
              assessment amounts to billings recorded in IFMS, a control activity that would
              have helped EPA detect the errors, because it was not involved with penalty
              billings. As a result, OECA reported some inaccurate penalty data.

Errors in Penalty Data in ICIS Identified
              We found seven incorrect penalty amounts that overstated the annual penalty
              assessment by $139,242. We reviewed 156 FY 2008 civil penalty billings of
              $100,000 or higher related to 117 assessments. EPA personnel in the regions and
              OECA offices enter penalty assessment data into ICIS. OECA’s Enforcement and
              Compliance FY 2008 Reporting Plan requires regions and OECA offices to
              certify that the data entered in the national database are complete and correct

              Table 4-1 provides the details of the penalty misstatements in ICIS.

  Table 4-1: Penalty Misstatements in ICIS
                                       Federal
                            Final      Penalty           Billing      Billed        Overstated
      Enforcement           Order     Assessed         Document      Amount        (Understated)
     Action Identifier       Date      (in ICIS)        Number      (in IFMS)         in ICIS
      01-2007-5000         06/30/08       $125,311    2710842R106        $31,724          $93,587
      03-2008-0103         09/18/08       $122,982    2730875Z356        $50,000          $72,982
      04-2006-9037         04/09/08     $6,700,000    2740843W296     $6,719,598        $(19,598)
      05-2003-0255         01/29/08       $750,000    2750803A199       $760,000        $(10,000)
      08-2003-0244         05/14/08       $211,593    2780843W130       $181,124          $30,469
      08-2006-0080         03/26/08       $150,000    2780803A101       $176,000        $(26,000)
      09-2008-7002         08/21/08     $2,640,000    2790847X313     $2,642,198         $(2,198)
          Totals                      $10,699,886                   $10,560,644         $139,242
  Source: OIG analysis of EPA data.

              OECA’s reporting and certification process did not detect all the penalty errors in
              the ICIS database. Reconciling the assessment amounts in ICIS to the billings
              recorded in IFMS is a control activity that would have helped EPA to detect the
              errors. OECA did not perform the reconciliation because it was not involved with
              penalty billings. CFC records and tracks all EPA penalty billings and collections.
              Since EPA tracked penalty assessments and billings through separate program
              offices, the ICIS and IFMS databases did not have a common data field, or


                                               12 

                                                                                    10-P-0077 



         common link, that would facilitate a reconciliation of penalties recorded in the
         databases. We attempted to reconcile the penalty amounts in ICIS and IFMS and
         found the reconciliation to be difficult without a common link. We were not able
         to reconcile the $30-million difference between OECA’s penalty assessments and
         CFC’s billings for the 5 fiscal years ended September 30, 2008.

         Reconciliations are a control activity to verify the completeness and accuracy of
         data. GAO’s Standards for Internal Control in the Federal Government, dated
         November 1999, states that control activities, including reconciliations, are an
         integral part of an entity’s planning, implementing, reviewing, and accountability
         for stewardship of government resources and achieving effective results.

         As a result of the errors in ICIS, OECA reported some inaccurate data in its
         annual Accomplishments Report. Without performing a reconciliation,
         management assumes a greater risk that financial data may not be complete and
         accurate.

Conclusion
         OECA’s ICIS database contained errors in the FY 2008 penalty assessment
         amounts that OECA’s reporting and certification process did not detect. EPA
         could implement a control activity to detect penalty data errors by reconciling the
         penalty amounts in ICIS and IFMS. The reconciliation would reduce the risk of
         errors and promote more accurate reporting.

Recommendations
         We recommend that the Assistant Administrator for Enforcement and Compliance
         Assurance:

         4-1    Correct the fines and penalty errors identified in this report in ICIS.

         We recommend that the Chief Financial Officer and the Assistant Administrator
         for Enforcement and Compliance Assurance work together to:

         4-2    Develop a common link between ICIS and IFMS to facilitate the
                reconciliation of the penalty-assessed amounts in ICIS to the penalty-
                billed amounts in IFMS.

         4-3    Perform an annual reconciliation of the penalty-assessed amounts in ICIS
                to the penalty-billed amounts in IFMS.




                                          13 

                                                                           10-P-0077 



Agency Comments and OIG Evaluation
         EPA agreed with our recommendations. The OIG made changes to the report
         based on the Agency’s comments where appropriate. Appendix B provides the
         full text of the Agency’s comments.




                                      14 

                                                                                    10-P-0077 





                                 Chapter 5
           EPA Reported Penalty Assessments
                  but Not Collections
          EPA tracked the assessment, billing, and collection of fines and penalties but used
          the assessments, and not the collections, as one of the measures of the
          enforcement program’s impact. OECA publicly reported in its annual
          Accomplishments Report the penalty assessments but not the collections. OECA
          believes that assessments are the key measure for reporting to the public.
          However, OECA’s report without collection data did not promote transparency
          and open government. A January 2009 Presidential memorandum called for a
          commitment to open government and transparency, which promotes
          accountability and provides information for citizens about what their government
          is doing. Since EPA did not collect a significant amount of penalty assessments,
          EPA’s reporting of penalty information was not completely accurate and
          transparent and may have overstated the impact of the enforcement program.

EPA Disclosed Penalty Assessments but Not Collections for
Enforcement Accomplishments
          OECA publicly reported in the annual Accomplishment Report the amount of
          fines and penalties assessed but not the amount of collections. For the 5 fiscal
          years ended September 30, 2008, OECA reported civil fines and penalties
          assessed of $724 million. As of April 14, 2009, EPA had not collected
          $279,644,975 of the penalties, a significant portion of the assessed amount. The
          uncollected penalties include three large default judgment penalties from civil
          judicial cases totaling $229,706,860. The Agency believes these three penalties
          are unlikely ever to be collected, and the removal of these penalties would result
          in a significant reduction in the overall level of penalties that EPA reports.

          The President's Memorandum on Transparency and Open Government, dated
          January 21, 2009, states that the Administration is committed to creating an
          unprecedented level of openness in government. According to the memo,
          “Government should be transparent. Transparency promotes accountability and
          provides information for citizens about what their government is doing.” By
          disclosing penalty collections along with assessments, EPA would help support
          the Administration’s commitment to openness and transparency in government.

          GAO recommended that EPA report its penalty collections. The GAO report,
          Environmental Enforcement: EPA Needs to Improve the Accuracy and
          Transparency of Measures Used to Report on Program Effectiveness, dated
          September 18, 2008, stated that EPA is overstating the impact of the enforcement
          programs by reporting penalties assessed against violators rather than actual


                                           15 

                                                                                     10-P-0077 



         penalties that the U.S. Treasury received. This situation may overstate the impact
         of the enforcement programs by reflecting penalties that have not or will not be
         collected. GAO recommended that when reporting the amount and nature of
         penalties stemming from enforcement actions, the EPA Administrator should
         disclose federal penalties collected as well as assessed. OECA responded to GAO
         that it did not report penalty collections because it believes that reporting penalties
         assessed is the key measure for reporting to the public.

         Since EPA did not collect a significant amount of assessments, OECA may have
         overstated the impact of the enforcement program by reporting penalty
         assessments but not the collections. OECA’s reporting may undermine the
         transparency and accuracy of EPA's reported outcomes, cause EPA to overstate
         its enforcement achievements, and create the potential for Congress and the public
         to misunderstand the Agency’s enforcement outcomes.

Conclusion
         EPA used penalty assessments as one of the measures of the enforcement
         program’s impact. OECA publicly reported the penalty assessments but not the
         collections. Since EPA did not collect a significant amount of the penalty
         assessments, OECA’s reports might have overstated the impact of the
         enforcement program. EPA could support the Administration’s commitment to
         openness and transparency in government by reporting penalty collections as well
         as the assessments.

Recommendation

         We recommend that the Assistant Administrator for Enforcement and Compliance
         Assurance:

         5-1 	   Disclose fines and penalties collected as well as assessed when reporting
                 the amount and nature of fines and penalties based on enforcement
                 actions. Since EPA does not collect all penalties in the year assessed,
                 reporting total assessments and collections for a combined group of years
                 may be a reasonable approach to disclosure.

Agency Comments and OIG Evaluation

         EPA agreed with our recommendation. The OIG made changes to the report
         based on the Agency’s comments where appropriate. Appendix B provides the
         full text of the Agency’s comments.

         EPA emphasized that if it provided public information on its penalty collections,
         the report would need to consider the important timing differences between
         penalty assessments, billings, and collections. We agree there are timing
         differences between the assessment and collection of penalties. However, timing


                                           16 

                                                                         10-P-0077 



differences accounted for only a small portion of the uncollected penalties in our
review. For the 5 fiscal years ended September 30, 2008, EPA recorded penalties
totaling $694 million, with $280 million of that amount uncollected as of
April 14, 2009. Of the $280 million, $264 million was delinquent and only
$16 million was not yet due. We believe that when EPA provides public
information on its penalty collections, EPA should develop the report considering
the reasons for delinquencies as well as timing differences. The OIG
recommendation provides EPA considerable discretion in determining how it will
report penalty collections.

OECA stated that the billing and collection of penalties are not an enforcement
function. We disagree because billings and collections both represent
accomplishments and serve as a deterrent to noncompliance with environmental
statutes. EPA could increase its transparency by reporting penalty collections to
the public as well as assessments.




                                17 

                                                                                                                                           10-P-0077



                                  Status of Recommendations and
                                    Potential Monetary Benefits
                                                                                                                                 POTENTIAL MONETARY
                                                     RECOMMENDATIONS                                                              BENEFITS (in $000s)

                                                                                                                     Planned
    Rec.    Page                                                                                                    Completion   Claimed    Agreed To
    No.      No.                          Subject                           Status1         Action Official            Date      Amount      Amount

    2-1       7     Work with the Agency program offices to                   O          Chief Financial Officer    December
                    implement performance measures to track the                                                       2010
                    timeliness of forwarding accounts receivable
                    source documents to CFC and issue performance
                    reports to Agency program offices and regions for
                    accountability.

    2-2       7     Analyze and document the current process of               O          Chief Financial Officer
                    forwarding accounts receivable source documents
                    to CFC and review it for effectiveness. Upon
                    completion, develop a plan for testing key internal
                    controls and correcting any deficiencies as part of
                    the Office of Management and Budget Circular
                    A-123 review of internal controls.

    2-3       7     Record the billings in IFMS for the two stipulated        C          Chief Financial Officer     08/18/09     $2,840      $2,840
                    penalties.

    2-4       7     Develop a policy on fines and penalties to clarify        O          Chief Financial Officer     12/31/10
                    when a stipulated penalty becomes an account
                    receivable.

    3-1      10     Notify the regional assignee that the debt for BD         C          Chief Financial Officer     05/04/09      $299       $299
                    #2700630B058 is delinquent and request they work
                    to resolve it.

    3-2      10     Ensure that Region 10 assigns the responsibility for      C       Assistant Administrator for    07/30/09
                    monitoring the outstanding debt for BD                                Enforcement and
                    #2700630B058 and provides the name of the                          Compliance Assurance
                    assignee to CFC.

    4-1      13     Correct the fines and penalty errors identified in        C       Assistant Administrator for    01/06/10
                    this report in ICIS.                                                  Enforcement and
                                                                                       Compliance Assurance

    4-2      13     Develop a common link between ICIS and IFMS to            O       Chief Financial Officer and
                    facilitate the reconciliation of the penalty-assessed             Assistant Administrator for
                    amounts in ICIS to the penalty-billed amounts in                      Enforcement and
                    IFMS.                                                              Compliance Assurance

    4-3      13     Perform an annual reconciliation of the penalty-          O       Chief Financial Officer and
                    assessed amounts in ICIS to the penalty-billed                    Assistant Administrator for
                    amounts in IFMS.                                                      Enforcement and
                                                                                       Compliance Assurance

    5-1       16    Disclose fines and penalties collected as well as         O       Assistant Administrator for
                    assessed when reporting the amount and nature of                      Enforcement and
                    fines and penalties based on enforcement actions.                  Compliance Assurance
                    Since EPA does not collect all penalties in the year
                    assessed, reporting total assessments and
                    collections for a combined group of years may be a
                    reasonable approach to disclosure.

1    O = recommendation is open with agreed-to corrective actions pending
     C = recommendation is closed with all agreed-to actions completed
     U = recommendation is undecided with resolution efforts in progress



                                                                                  18 

                                                                                        10-P-0077 




                                                                                Appendix A

                 Details on Scope and Methodology
We conducted this audit in accordance with generally accepted government auditing standards.
Those standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our audit
objectives. We believe that the evidence obtained provides a reasonable basis for our findings
and conclusions based on our audit objectives. We conducted our audit from January through
October 2009. We reviewed EPA’s processes for billing and collection of fines and penalties.
To gain an understanding of the processes, we interviewed personnel in CFC and OECA. We
reviewed OECA’s Accomplishments Reports and obtained data reports of fines and penalty
assessments, billings, and collections for FYs 2004 through 2008.

We conducted field work for billing and collections in CFC where the accounts receivable and
collection processing occurs. For billings, we tested a sample of fines and penalties to determine
whether EPA recorded them timely. We used the monetary unit method of statistical sampling to
select 32 billings totaling $63,198,005 out of 2,453 billings totaling $133,087,641 from FY 2008
and the first quarter of FY 2009. For collections, we tested a sample of uncollected fines and
penalties to determine whether EPA took appropriate action to collect them. We used
judgmental sampling to select a diversified sample of penalty accounts with different status
codes, aging, and amounts. We selected 30 fines and penalties totaling $19,215,096 out of 385
totaling $264,060,278 from the 5 fiscal years ended September 30, 2008. We separately
reviewed three large default judgment civil penalties totaling $229,706,860 that EPA considered
uncollectible.

We assessed EPA’s internal controls related to the tracking and reporting of assessments and the
billing and collection of fines and penalties. We gained an understanding of the internal controls
through interviews of finance office and OECA personnel, examination of supporting
documentation for selected billing and collection transactions, and comparison of assessment
data in ICIS to billing data in IFMS. We did not review the internal controls over IFMS from
which we obtained data reports, but relied on the review conducted during the audit of EPA’s
FY 2008 financial statements.

We reviewed the following prior EPA OIG and GAO reports that had findings and
recommendations related to billing and collections and to accurate and transparent reporting of
OECA’s program effectiveness.




                                                19 

                                                                                                  10-P-0077


Table A-1: Prior Reports Reviewed
                        Report Title                                  Report No.               Date
 Environmental Enforcement: EPA Needs to Improve the           GAO-08-1111R             September 18, 2008
 Accuracy and Transparency of Measures Used to Report
 on Program Effectiveness
 Audit of EPA’s Fiscal Year 2007 and 2006 (Restated)           08-1-0032                November 15, 2007
 Consolidated Financial Statements
 Region 5’s Billing and Collection of Accounts Receivable      E1AMB6-05-0079-7100139   March 26, 1997
Source: OIG analysis.

Both OIG reports disclosed internal control weaknesses in establishing receivables timely
because the regional offices did not timely forward accounts receivable source documents to the
finance office. Our current review found that these internal control weaknesses still exist.
According to the GAO report, EPA overstated the impact of the enforcement program by
reporting penalties assessed against violators rather than actual penalties that the Treasury
received. EPA disagreed with GAO’s recommendation to report penalties collected as well as
assessments. EPA stated that reporting penalties assessed is the key measure for reporting to the
public. While EPA agreed that penalties collected is a useful internal management measure,
EPA did not believe that penalties collected should be publicly reported when EPA announces
individual case settlements or in its Annual Results.




                                                        20 

                                                                                     10-P-0077 



                                                                             Appendix B

                Agency Response to Draft Report
                                    December 23, 2009




MEMORANDUM

SUBJECT:      Response to the Office of Inspector General Draft Audit Report: EPA Needs to
              Improve Its Recording and Reporting of Fines and Penalties.

FROM:         Barbara J. Bennett
              Chief Financial Officer

TO:           Bill A. Roderick
              Acting Inspector General

       Thank you for providing us with the opportunity to comment on and respond to the
findings and recommendations made in the “Draft Audit Report: EPA Needs to Improve Its
Recording and Reporting of Fines and Penalties.” On behalf of the Agency, attached is our
response to the specific audit findings and recommendations made in the report.

       If you have any questions concerning the audit response, please contact Stefan Silzer,
Acting Director, Office of Financial Management, at 564-5389 or Jeanne Conklin, Staff Director,
Financial Policy and Planning Staff, at 564-5342.

Attachments

cc:    P
       	 aul Curtis
       Arthur Budelier
       Cynthia Giles
       Mathy Stanislaus
       Maryann Froehlich
       Joshua Baylson
       Stefan Silzer
       Raffael Stein




                                              21 

                                                                                                                            10-P-0077 



                                  OCFO’s Response to OIG Draft Report

      “EPA Needs to Improve its Recording and Reporting of Fines and Penalties”
                           Assignment No. 2009 – 0803


This document is comprised of the following sections:

      1.   Table of Response to OIG’s nine recommendations
      2.   General comments regarding the recommendations
      3.   OCFO/OECA Specific Joint Comments by page number
      4.   OECA Specific Comments by page number

1. Table of Response to OIG’s nine recommendations

Rec.       Subject                               Action        Recommendation                                    Planned
No.                                             Official (s)                                                    Completion
                                                                                                                  Date
2-1        Work with the Agency program        OCFO/OFM        OCFO agrees with this recommendation.            Dec. 2010
           offices to implement                                OCFO Office of Financial Management
           performance measures to track                       will establish an Agency-wide workgroup
           the timeliness of forwarding                        to develop and implement performance
           accounts receivable source                          measures and performance reports.
           documents to CFC and issue
           performance reports to Agency
           program offices and regions for
           accountability.
2-2        Test the timeliness of forwarding   OCFO/OFS        In accordance with A-123 guidance, tests of      Ongoing
           accounts receivable source                          operating effectiveness will not be
           documents to CFC as part of the                     developed for ineffectively designed
           Office of Management and                            controls. Rather, we recommend this
           Budget Circular A-123 review of                     recommendation be changed to: "Analyze
           internal controls.                                  and document the current process and
                                                               review it for effectiveness. Upon
                                                               completion thereof, management will
                                                               develop a plan for testing key internal
                                                               controls and correcting any deficiencies."

                                                               In support of OCFO, OECA and the EPA
                                                               regions will take steps to assure that penalty
                                                               assessments are timely forwarded to OCFO.
2-3        Record the billings in IFMS for     OCFO/OFS        EPA established a receivable for the two         Completed
           the two stipulated penalties.                       stipulated penalties
3-1        Notify the regional assignee that   OCFO/OFS/CFC    CFC has contacted the regional office            Ongoing
           the debt for BD# 2700630B058                        through 'Collection Estimate' emails, which
           is delinquent and request they                      indicate a debt is outstanding and request
           resolve it.                                         information regarding the debt. Since this
                                                               is a restitution case, there is no additional
                                                               work they can do to 'resolve' the debt.
                                                               However, CFC will work with Region 10 to
                                                               maintain a current status of this debtor
                                                               through the Court system.
3-2        Ensure that the Region 10 Office    Re-assign to    Region 10 has assigned the responsibility        Completed
           of Regional Counsel assigns the     OECA            for monitoring the outstanding debt and
           responsibility for monitoring the                   provided the name of the assignee to CFC.
           outstanding debts for BD#
           2700630B058 and provides the
           name of the assignee to CFC.




                                                                22 

                                                                                                                      10-P-0077 



4-1     Correct the fines and penalty         OECA        OECA will correct the errors.                    March 31, 2010
        errors identified in this report in
        ICIS.
4-2     Develop a common link between         OECA/OCFO   OECA and OCFO will jointly explore               Ongoing
        ICIS and IFMS to facilitate the       (CFC)       potential methods and their costs for
        reconciliation of the penalty-                    reconciling penalty data. We anticipate
        assessed amounts in ICIS to the                   selecting an appropriate method for
        penalty-billed amounts in IFMS.                   reconciliation by March 31, 2010, with the
                                                          intention of performing a first reconciliation
                                                          in FY 2010.
4-3     Perform an annual reconciliation      OECA/OCFO   See response to 4-2 above.                       Ongoing
        of the penalty- assessed amounts      (CFC)
        in ICIS to the penalty-billed
        amounts in IFMS.
5-1     Disclose fines and penalties          OECA        OECA and OCFO will jointly undertake a           Ongoing
        collected as well as assessed                     feasibility assessment to examine
        when reporting the amount and                     approaches to public disclosure of penalties
        nature of fines and penalties                     collected data. This feasibility assessment
        based on enforcement actions.                     will be completed by the end of the first
        Since EPA does not collect all                    quarter of FY 2011. OECA and OCFO
        penalties in the year assessed,                   believe their first priority is to address IG
        reporting total assessments and                   recommendations 4-2 and 4-3 in an effort to
        collections for a combined group                  gain better understanding of the
        of years may be a reasonable                      recommendations once implemented.
        approach to disclosure.


2. General comments regarding the recommendations

A) OECA and OCFO appreciate the work performed on this audit and will use this opportunity
to further improve procedures. It is our belief with a few exceptions as reported in this audit that
EPA records all penalty assessments, as well as billings and collections in a timely and accurate
manner. In our opinion this report treats these exceptions as if they are the rule not exceptions to
the rule.

Overall, the report demonstrates the level of success that OECA has had in the accuracy of its
recording and reporting of penalty data. Although the IG makes very little mention of this, it is a
fact established by the IG's findings that the errors found were a small percentage of the numbers
of reports and the total dollar values involved. For example, on page 10 of the draft report, the
IG states EPA's penalty assessments announced for FY 2008 "overstated" the actual amount by
$139,242. The errors found represent only 0.1% of the total penalties assessed. OECA considers
this a success, and would like the IG to consider recognizing it as such.

OECA will continue to strive to identify and amend all data errors. OECA agrees that there must
be reconciliation between their penalty assessment numbers and our billing and collection
numbers.

Below we suggest a number of edits to the report that reflect the overall quality of the work that
OCFO and OECA are performing today. Both OCFO and OECA continue to remain open to
implement the recommendations of the IG in order to make further improvements.

B) There are important timing differences the IG should recognize that require differential
treatment of penalty assessments and penalty billing and collections. Not all penalty assessments
are due immediately. The time period can range from one to two months, and in some cases, may
extend for years. Accordingly, this time must be factored in for billings and collections


                                                           23 

                                                                                           10-P-0077 



purposes. This means that when EPA determines a civil penalty during a fiscal year, that does
not mean that all of that amount is legally due and should have been billed and collected in that
same fiscal year. Thus, to the extent the Agency decides to provide public information on its
penalty collections, this report will need to be developed considering these factors.


3. OCFO/OECA Specific Joint Comments by page number

A) OECA disagrees with the statement on page 12 of the draft report, "Since EPA did not collect
a significant amount of penalty assessments, OECA did not promote accurate and transparent
reporting and may have overstated the impact of the enforcement program." The billing and
collection of penalties are not an enforcement function. Therefore, if some penalties are not
collected or deemed not collectable this does not represent an overstatement of the
accomplishments of EPA's enforcement program. While recognizing that billing and collection
information is important, penalty assessments are an equally important measure of the deterrent
value of EPA enforcement actions. Penalty assessments serve to notify the regulated community
and the public concerning the important consequences for noncompliance.

Contrary to the IG's statement, OECA has accurately and transparently reported penalties
assessed. Given the circumstances of the uncollectible penalties identified, (i.e., assessed via
default judgment), it should be noted that uncollectible penalties in no way represent a
shortcoming of any EPA program. OECA’s role is to obtain penalty assessments.

Nevertheless, OECA and OCFO recognize there is an opportunity to provide the public with
information on penalty collections and thus are committed to exploring the feasibility of doing
so. OECA and the regions recognize that it is necessary to convey assessment information to
OCFO in a timely manner so that OCFO can carry out its function.

B) The IG indicates on page 10 that it reviewed 156 FY 2008 civil penalty assessments of
$100,000 or higher. OECA's list of the $100,000 or higher FY 2008 civil penalty assessments
shows only 117 such assessments. Attachment 1 is OECA's list. Since OECA has not seen the
IG's list of 156 assessments, we do not know why there is a difference in our counts. We believe
the IG is counting a penalty assessment in a single case that was internally split among the
regions, as a separate penalty assessment for each region that received a split of the penalty. In
contrast, OECA only counts one penalty assessment for such cases and ignores the internal
allocations of the penalty amounts among the regional offices that participated in the case.
OECA increases its count to 167 if all the regions pieces of these cases are counted. The IG and
OECA should confirm this is correct before the final report is published.

C) OECA does not believe that the initial demand letter concerning payment of stipulated
penalties is necessarily or always a basis for creating an accounts receivable. The initial demand
letter often is just the beginning of the process for obtaining the facts and analysis that lead to a
specific penalty amount that would support creating an accounts receivable. The stipulated
penalty amount that is finally agreed upon is based on additional information received from the
defendant about the purported violations that underlie the initial demand, including factual issues
and mitigating circumstances.



                                                 24 

                                                                                        10-P-0077 



OECA and OCFO believe that a policy must be issued that would assist the EPA regions in
making the determination whether stipulated penalty requests constitute a penalty assessment,
thus requiring an accounts receivable to be opened. To remedy this situation, OCFO’s Office of
Financial Management will be establishing a workgroup in January 2010 with the objective of
writing a policy on fines and penalties.
OECA and OCFO, with assistance from the Office of General Counsel, and in conformance with
the FASAB standards, will draft this policy. One portion of this policy will be to clarify when a
stipulated penalty becomes an account receivable, thus prompting OECA to notify OCFO. This
policy will be completed and issued by the end of CY 2010. The IG is welcome to add this
commitment to the Report as an additional recommendation.


4. OECA-specific comments by page number

A) In the summary section of the report, titled, “At A Glance: What We Found”:

       1. The language used by the IG in this summary paragraph is overly harsh. EPA
       generally does a very good job tracking penalty assessments, billings, and collections
       despite some obstacles. OECA does not believe that the IG’s findings support the use of
       the harsh language in this section or elsewhere in the report.

       2. The IG makes the statement, “EPA tracked the assessment, billing, and collection of
       fines and penalties. However, it used only the assessments, and not the collections, to
       measure the impact of the enforcement program.” OECA wants to assure that the IG
       understands that EPA uses measures in addition to penalty assessments to measure the
       impact of our enforcement program (e.g., pollutant reduction, value of injunctive relief,
       health benefits). The way this sentence is drafted implies that EPA only uses penalty
       assessments as a measure.

       3. To acknowledge the general success of EPA in tracking penalty assessments, EPA
       proposes that the IG change the first and third paragraphs to read,

              EPA generally recorded fines and penalty billings in a timely manner, though we
              found a few exceptions. Regional and program office personnel generally
              forwarded copies of source documents timely to CFC, though again there were a
              few exceptions which delayed the recording of accounts receivable. EPA did not
              record a receivable as required for two disputed stipulated penalties totaling
              $2,839,500.

              EPA tracked the assessment, billing, and collection of fines and penalties. EPA
              used the assessments, and not the collections, to measure the impact of the
              enforcement program. OECA’s data system for tracking EPA enforcement
              actions contained seven errors totaling $139,242 in the penalty assessment
              amounts out of 156 assessments reviewed. These seven errors constituted 0.13
              percentage of the total amount from these 117 assessments. Due to these data
              errors, information released by EPA on its enforcement actions was not



                                               25 

                                                                                            10-P-0077 



               completely accurate. Assuring more accurate reporting would increase the
               transparency of EPA’s penalty data.

B) Regarding the data table at the top of page 2 of the report and the text related to this table, the
stipulated penalty amounts that EPA measures are stipulated penalty paid amounts, not assessed
amounts. EPA adds judicial and administrative penalties together for an annual civil penalty
assessed total but we do not add in stipulated penalties. We report stipulated penalties
separately. The administrative and judicial penalties that we count are the penalty amounts
assessed by the court or administrative law judge. The stipulated penalty amounts are penalty
amounts that have been paid. We don't add them together to avoid combining unlike figures.

C) Again, to recognize EPA’s generally strong performance, OECA suggests that the first
paragraph on page 4 be changed to read,

       EPA generally recorded fines and penalty billings in a timely manner, though there were
       some exceptions. Regional and program office personnel generally forwarded copies of
       source documents timely to CFC as required by EPA’s Resources Management Directive
       System, though again there were exceptions. Also, EPA did not record a receivable for
       two disputed stipulated penalties totaling $2,839,500. The Agency was uncertain about
       whether to record penalty amounts in dispute and did not follow established guidance for
       recording these accounts receivable. Untimely receipt of accounts receivable source
       documentation delays the recording of accounts receivable and the process of collecting
       delinquent receivables. The unrecorded receivable understated the accounts receivable
       in the financial statements.

For the same reasons, OECA also proposes that the paragraph that begins at the bottom of page 4
be revised to read,

       Though EPA generally recorded fines and penalty billings in a timely manner there were
       seven exceptions identified. Where these exceptions occurred, the Office of Regional
       Counsel and program offices had not forwarded copies of the source documents to CFC
       timely. EPA personnel offered the following reasons for the delays in forwarding the
       source documents in these instances: time off and holiday leave, determination of a
       penalty allocation that required more time, and a misunderstanding over which party
       would send the documents to CFC. For three of the seven documents, EPA could not
       provide a reason for the delay.

OECA also proposes that the associated section titles be changed to match the more positive tone
of this revised paragraph.

D) Again, to recognize the generally strong job that EPA does in recording penalty billings, we
request that the first sentence of the conclusion on Page 7 be changed to read,

       EPA generally recorded fines and penalty billings in a timely manner though there were
       exceptions that occurred because regional and program office personnel had not timely
       forwarded copies of source documents timely to CFC.



                                                  26 

                                                                                          10-P-0077 





E) Concerning the Chapter 3 conclusion on page 9 of the report, to clearly note the very unusual
circumstance surrounding the problem uncovered, we propose that it be changed to read,

       Based on our testing, we concluded that EPA generally took appropriate action to collect
       fines and penalties. We did find one instance, in a very unusual case involving a local
       court order that required a criminal defendant to make payments to EPA, that EPA did
       not monitor the collections on a Region 10 receivable as required by EPA’s guidance.
       Region 10 could improve its collection experience by assigning responsibility for
       monitoring the Superfund receivable and resolving the debt. The Office of Enforcement
       and Compliance Assurance is responsible for Superfund enforcement efforts.

Also, EPA criminal enforcement matters, Superfund and otherwise, are an OECA responsibility,
not a responsibility of the Office of Solid Waste and Emergency Response. This necessitates a
change to the language of recommendation 3-2 as well.

F) On page 10, EPA proposes that the subtitle be changed to, “EPA Maintained Highly Accurate
Penalty Data in ICIS, though Several Errors were Identified.” This again is to reflect EPA’s
generally strong performance. For the same reason, we suggest the language of the paragraph
that follows this subtitle be changed to read,

       EPA personnel in the regions and OECA offices enter penalty assessment data into ICIS.
       OECA’s Enforcement and Compliance FY 2008 Reporting Plan requires regions and
       OECA offices to certify that the data entered in the national database is complete and
       correct. However, OECA’s FY 2008 ICIS penalty assessments data was not completely
       accurate. We reviewed 156 FY 2008 civil penalty assessments of $100,000 or higher and
       found seven incorrect penalty amounts that overstated the annual penalty assessment
       total by $139,242 which was only 0.13 percent of the penalty amounts we reviewed.
       Table 4-1 provides the details of the seven penalty misstatements in ICIS.

F) Concerning the last sentence of the paragraph that carries over to the top of page 13, “OECA
believes it should not publicly report collections when EPA announces individual case
settlements or publishes its Accomplishment Reports,” we wish to assure that it is understood
that it would not be possible to announce collections at the time we announce settlements in that
penalties are not due to be paid at the time that EPA issues its individual case press releases, at
the point of lodging of the judicial consent decree or approval of the administrative consent
agreement. The penalties are due some time later, usually 30 or 60 days later.

H) To acknowledge the impact of the time lag between assessment and payment of penalties,
OECA proposed revisions of recommendation 5-1 to read as follows:

   Disclose total fines and penalties collected as well as assessed when publicly reporting the
   amount of fines and penalties. Since there are legitimate time lags between when a penalty is
   assessed, when it becomes legally due and the billing and collection process, EPA may need
   to develop a separate way to report penalty collections from its existing annual penalty
   assessment reports.



                                                27 

                                                                                      10-P-0077




I) OECA has additional minor, editorial comments on the report that they would like to share
with OIG at OIG’s convenience.




                                              28 

                                                                                   10-P-0077


                                                                                 Appendix C

                                   Distribution
Office of the Administrator
Chief Financial Officer
Assistant Administrator for Enforcement and Compliance Assurance
Director, Office of Compliance, Office of Enforcement and Compliance Assurance
Agency Follow-up Coordinator
General Counsel
Associate Administrator for Congressional and Intergovernmental Relations
Associate Administrator for Public Affairs
Audit Follow-up Coordinator, Office of the Chief Financial Officer
Audit Follow-up Coordinator, Office of Enforcement and Compliance Assurance
Acting Inspector General




                                            29 

